No.

 

IN THE
SUPREME COURT OF THE UNITED STATES

 

EASTERN OREGON MINING ASSOCIATION, GUY MICHAEL,
CHARLES CHASE, WALDO MINING DISTRICT, THOMAS A.
KITCHAR, and DONALD R. YOUNG,

Applicants/Petitioners,
Vv.

OREGON DEPARTMENT OF ENVIRONMENTAL QUALITY,
DICK PEDERSON, in his capacity as Director of the Department,
and NEIL MULLANE, in his capacity as Administrator of the Water
Quality Division of the Department,

Respondents.

CERTIFICATE OF SERVICE

OF APPLICATION FOR EXTENSION OF TIME TO FILE
PETITION FOR WRIT OF CERTIORARI TO THE SUPREME
COURT OF OREGON

 

I certify that on September 3, 2019, I served the foregoing Application, pursuant
to Rule 29.3 on counsel for the respondent, by depositing a copy of the same, first class
postage prepaid, in the United States mail, addressed to:

ELLEN F. ROSENBLUM, #753239
Attorney General

BENJAMIN GUTMAN, #160599
Solicitor General

MICHAEL CASPER, #062000
Senior Assistant Attorney General
1162 Court Street NE

Salem, OR 97301-4096

(503) 378-4402
michael.casper@doj.state.or.us
Dated: September 3, 2019

Respectfully submitted,

Aiees L. Buchal

‘ounsel af Record)
Murphy & Buchal LLP
3425 S.E. Yamhill Street, Suite 100
Portland, OR 97214
E-mail: jbuchal@mbllp.com
Phone: 503-227-1011
Counsel for Applicants/Petitioners
